<html>
<title> - [H.A.S.C. No. 115-2} CONSIDERATION OF THE COMMITTEE OVERSIGHT PLAN FOR THE 115TH CONGRESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        
                          [H.A.S.C. No. 115-2]
 
                     CONSIDERATION OF THE COMMITTEE

                         OVERSIGHT PLAN FOR THE

                             115TH CONGRESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            FEBRUARY 2, 2017
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
24-297                      WASHINGTON : 2017                      
                                    
__________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  

                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
TRENT FRANKS, Arizona                MADELEINE Z. BORDALLO, Guam
BILL SHUSTER, Pennsylvania           JOE COURTNEY, Connecticut
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            MARC A. VEASEY, Texas
MIKE COFFMAN, Colorado               TULSI GABBARD, Hawaii
VICKY HARTZLER, Missouri             BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
BRAD R. WENSTRUP, Ohio               CAROL SHEA-PORTER, New Hampshire
BRADLEY BYRNE, Alabama               JACKY ROSEN, Nevada
SAM GRAVES, Missouri                 A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona              ANTHONY G. BROWN, Maryland
STEPHEN KNIGHT, California           STEPHANIE N. MURPHY, Florida
STEVE RUSSELL, Oklahoma              RO KHANNA, California
SCOTT DesJARLAIS, Tennessee          SCOTT H. PETERS, California
RALPH LEE ABRAHAM, Louisiana         PETE AGUILAR, California
TRENT KELLY, Mississippi             JOAQUIN CASTRO, Texas
MIKE GALLAGHER, Wisconsin
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming

                  Robert L. Simmons II, Staff Director
             Zach Steacy, Director, Legislative Operations

  
  CONSIDERATION OF THE COMMITTEE OVERSIGHT PLAN FOR THE 115TH CONGRESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, February 2, 2017.
    The committee met, pursuant to call, at 10:13 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. A quorum is 
now present, although I know some of our members are stuck on a 
bus coming back from a late prayer breakfast.
    Let me welcome everyone. The plan today is to consider and 
vote on the committee oversight plan. We will then immediately 
adjourn and go upstairs for a classified briefing with the 
Defense Intelligence Agency to follow up on our hearing 
yesterday about the state of the world.
    Before we get to that, it is a tradition in this committee 
that we specifically introduce and welcome each of the new 
members to our committee. So let me do that on this side of the 
aisle right quick and then turn to Mr. Smith to introduce the 
members that he has so far on the other side of the aisle.
    First I want to welcome Dr. Scott DesJarlais, representing 
Tennessee's Fourth District, whose constituents are part of the 
workforce of Arnold Air Force Base, Oak Ridge National 
Laboratory, and Redstone Arsenal. Fourth term member, he has 
worked closely with this committee on force protection issues, 
especially after the shooting at the Chattanooga Naval Reserve 
Center.
    Next to him is Dr. Ralph Abraham. So if we have any medical 
problems in our late night markup, we are set. Dr. Abraham 
represents Louisiana's Fifth District, a voice for Louisiana's 
military installations. He is not only a medical doctor, he is 
also a veterinarian, and served in the Army National Guard and 
is currently a Coast Guard auxiliary pilot.
    The chair next to him is filled by Trent Kelly, who 
represents Mississippi's First District. A colonel in the 
Mississippi Army National Guard, he served for 30 years as an 
engineer, including multiple tours in Iraq. It is good to see 
Mississippi represented again on this committee.
    Next to him is--oh, no. Kelly is--I am sorry. I didn't see 
you. Trent Kelly is here.
    The seat next to him, who is not here, is Dr. Mike 
Gallagher, another kind of doctor, he has a Ph.D. from 
Georgetown, representing Wisconsin's Eighth District. Mike 
served 7 years as a Marine Corps intelligence officer, 
including tours in Iraq, and has focused his work on 
counterterrorism, Middle East policy, including time at the 
National Counterterrorism Center, and unfortunately the Senate 
Foreign Relations Committee, which we will have to work out of 
him as soon as we can.
    Now, next to him on the end is Matt Gaetz representing 
Florida's First District, home of one of the largest military 
districts in the country, including Naval Air Station Pensacola 
and Eglin Air Force Base. Matt is a recovering lawyer, and 
joins us from his service in the Florida State legislature.
    I think on the bus coming back from the prayer breakfast is 
Don Bacon, who represents Nebraska's Second Congressional 
District. He is a retired Air Force brigadier general, 
commanded twice at the wing level at Offutt Air Force Base and 
at Ramstein. He deployed four times to the Middle East.
    Next is Jim Banks, who represents Indiana's Third District, 
home of the 122nd Fighter Wing of the Indiana National Guard. A 
naval supply officer, he has very recently completed a tour in 
Afghanistan, and also chaired the Indiana State Senate Veterans 
and Military Committee.
    And, finally, we have Liz Cheney, who represents Wyoming, 
home of F.E. Warren Air Force Base. Liz, of course, has served 
multiple policy roles in the State Department, including the 
second ranked official on U.S. policy in the Middle East. She 
is an accomplished author and commentator on American 
exceptionalism and national security, and has provided 
assistance to this committee even before she was elected to 
Congress.
    So we are very pleased at each of the new members on our 
side of the aisle, as we are with all new members to this 
committee.
    Let me yield to Mr. Smith for any comments and 
introductions.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Well, thank you, Mr. Chairman.
    We have eight new members, we have three more coming, which 
as I understand it, the Steering and Policy Committee will 
finalize tomorrow. So we will introduce them when the time is 
appropriate, but we do have eight new members, six of whom, I 
believe, are here. So we will start with a couple who have been 
on this committee before and welcome them back.
    Colleen Hanabusa, who represents Hawaii's First District, 
which includes Camp H.M. Smith, headquarters of the United 
States Pacific Command. She is a lawyer by profession. As Mr. 
Thornberry said, we won't hold that against anyone. I am a 
lawyer by profession; fortunately got over it. She returns to 
Congress and the Armed Services Committee, having previously 
served in three Congresses: 112th, 113th, 114th. So we welcome 
back her expertise. And certainly, Hawaii is a critical part of 
our national security team. So welcome back.
    Also returning is Carol Shea-Porter, who represents New 
Hampshire's First District, which includes Pease Air Force 
National Guard Base and Portsmouth Naval Shipyard. She is also 
returning to Congress, having served in the 110th, 111th, and 
113th; is the daughter of a Navy World War II veteran and was a 
military spouse while her husband served in the Army during 
Vietnam. Welcome back.
    We now have freshmen members, who are brand-new to the 
committee, starting with Jacky Rosen, who represents Nevada's 
Third District, which is just south of Las Vegas. And just 
north of her district is Nellis and Creech Air Force Bases. And 
she comes to the committee with experience as a software 
developer and computer programmer for a variety of businesses 
in Nevada. Welcome.
    And we have Donald McEachin, who represents Virginia's 
Fourth District, which includes Fort Lee, with the Navy 
installations in Norfolk and Newport News area just outside the 
district. He is the son of an Army veteran and a lawyer by 
profession. He joins the committee having previously served in 
the Virginia House of Delegates and the Virginia Senate.
    Next, we have Salud Carbajal, who represents California's 
24th District, which includes Vandenberg Air Force Base, Camp 
Roberts, and has Naval Base Ventura County and Fort Hunter 
Liggett nearby. He served 8 years in the Marine Corps Reserve, 
including active service during the 1991 Gulf war, and 
previously served on the Santa Barbara County Board of 
Supervisors for 12 years. Thank you for joining us.
    Next, we have Anthony Brown, not far from here, 
representing Maryland's Fourth District, which borders Fort 
Meade and the U.S. Naval Academy. He is a retired colonel. He 
served in the Army from 1984 to 1989, in the Army Reserves from 
1989 to 2014, and was the recipient of the Bronze Star while 
deployed in Iraq in 2004. He served in the Maryland House of 
Delegates for 8 years and as lieutenant governor for another 8 
years. It is great to have your experience on the committee.
    Two more members who are not yet here, but I will introduce 
them anyway. Stephanie Murphy, who represents Florida's Seventh 
District, which includes Naval Support Activity Orlando, which 
is involved in a range of research and development programs 
supporting the Department of Defense. She also served as a 
national security specialist in the Office of the Secretary of 
Defense, where she worked on a wide range of security issues 
from counterterrorism, foreign military relations, to strategic 
planning for the Department.
    And last, we have Ro Khanna, who represents California's 
17th District, a district that includes a number of technology 
companies doing work with the Department of Defense. He served 
in the Obama administration as the Deputy Assistant Secretary 
of Commerce for International Trade and recently taught 
economics at Stanford University.
    And let me just say in sum in agreeing with the chairman, 
we have a remarkable amount of talent on both sides of the 
aisle, as you can hear. I mean, the breadth of experience from 
military to technology, and on, I think, is going to serve this 
committee very well. So we welcome all of you and look forward 
to working with you.
    I yield back.
    The Chairman. Very well said. I completely agree.
    Now we will go to our business, which is adoption of the 
oversight plan. This is required by House Rules. We sent it to 
everybody a couple days ago, so that you have had a chance to 
look at it. Obviously, we touch on a number of topics in the 
oversight plan, but we also try to leave flexibility so that we 
can adjust to changes that happen over the course of the next 2 
years.
    So we have worked on this collaboratively with Mr. Smith, 
and hopefully this can be adopted with the committee.
    What? Painlessly, he says. So I am all for that as well.
    Do you have any other comments you would like to make?
    Mr. Smith. No, Mr. Chairman. Thank you.
    The Chairman. Great. So let me officially call up Committee 
Resolution No. 4 regarding the committee oversight plan for the 
115th Congress. The clerk shall read the resolution.
    Dr. Bright. Committee Resolution No. 4. Resolved, that the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee oversight plan for the 115th Congress, a 
copy of which has been distributed to each member.
    The Chairman. Following consultation with Mr. Smith, I ask 
unanimous consent the resolution be considered as read and open 
for amendment at any point.
    Without objection, it is so ordered.
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

  
    The Chairman. Is there any discussion on the oversight 
plan?
    Are there any amendments to the oversight plan?
    If not, the chair recognizes the gentleman from Utah for 
the purpose of offering a motion.
    Mr. Bishop. Mr. Chairman, I move to adopt the Committee 
Resolution No. 4, concerning the committee oversight plan.
    The Chairman. The question now occurs on the motion from 
the gentleman from Utah. So members in favor will say aye.
    Those opposed, say no.
    In the opinion of the chair, the ayes have it. The ayes 
have it, a quorum being present. The motion is adopted. And 
without objection, a motion to reconsider is laid upon the 
table. Without objection, committee staff is authorized to make 
technical and conforming changes to reflect the action of the 
committee in adopting Committee Resolution No. 4.
    And I think that is all the business we have. Again, we 
will start immediately upstairs in 2212 with our classified 
briefing with the Defense Intelligence Agency.
    The committee stands adjourned.
    [Whereupon, at 10:24 a.m., the committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
